No. 20-480
IN THE

Supreme Court of the United States
DAVID BABCOCK,
Petitioner,
v.
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Writ of Certiorari to the
United States Courts of Appeals
for the Sixth Circuit

MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX

RONALD M. BAHRIE
JUSTIN M. BAHRIE
NICHOLAS A. KIPA
BAHRIE LAW, PLLC
6810 S. Cedar St., Ste. 2C
Lansing, MI 48911

NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com

Counsel for Petitioner
May 14, 2021

Pursuant to Supreme Court Rule 26.8, undersigned counsel, on behalf of Petitioner, respectfully seeks leave to dispense with the requirement of a joint appendix in this case. I am authorized to state that the Solicitor General’s office, on behalf of Respondent, concurs in the filing of this motion.
The appendix to the petition for writ of certiorari in this case includes all of
the relevant lower court opinions and orders. The parties do not believe that any
other portion of the record merits special attention that warrants the preparation
and expense of a joint appendix. Accordingly, a separate joint appendix would not
materially assist in the Court’s consideration of this case.
For the foregoing reasons, the motion to dispense with the requirement of a
joint appendix should be granted.

Respectfully submitted,

RONALD M. BAHRIE
JUSTIN M. BAHRIE
NICHOLAS A. KIPA
BAHRIE LAW, PLLC
6810 S. Cedar St., Ste. 2C
Lansing, MI 48911

/s/ Neal Kumar Katyal
NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com
Counsel for Petitioner

May 14, 2021

1

